<html>
<title> - CHALLENGES FACING TODAY'S FEDERAL PROSECUTORS</title>
<body><pre>[Senate Hearing 109-748]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-748
 
             CHALLENGES FACING TODAY'S FEDERAL PROSECUTORS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2006

                               __________

                          Serial No. J-109-109

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
32-149                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

                    Subcommittee on Crime and Drugs

              LINDSEY O. GRAHAM, South Carolina, Chairman
CHARLES E. GRASSLEY, Iowa            JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
TOM COBURN, Oklahoma                 CHARLES E. SCHUMER, New York
                 James Galyean, Majority Chief Counsel
                Neil MacBride, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

DeWine, Hon. Mike, a U.S. Senator from the State of Ohio, 
  prepared statement.............................................    22
Graham, Hon. Lindsey, a U.S. Senator from the State of South 
  Carolina.......................................................     1
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     3
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................    24

                               WITNESSES

Battle, Michael A., Director, Executive Office for U.S. 
  Attorneys, Department of Justice, Washington, D.C..............     1
Brooks, Susan W., U.S. Attorney, Southern District of Indiana, 
  Department of Justice, Washington, D.C.........................     5
Shockley, William I., former President, National Association of 
  Assistant U.S. Attorneys, Lake Ridge, Virginia.................     9

                       SUBMISSIONS FOR THE RECORD

Battle, Michael A., Director, Executive Office for U.S. 
  Attorneys, Department of Justice, Washington, D.C., prepared 
  statement......................................................    12
Brooks, Susan W., U.S. Attorney, Southern District of Indiana, 
  Department of Justice, Washington, D.C., prepared statement....    17
Shockley, William I., former President, National Association of 
  Assistant U.S. Attorneys, Lake Ridge, Virginia, prepared 
  statement......................................................    25
Stein, Scott J., former Assistant U.S. Attorney, letter..........    42


             CHALLENGES FACING TODAY'S FEDERAL PROSECUTORS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 13, 2006

                              United States Senate,
                           Subcommittee on Crime and Drugs,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:50 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Lindsey 
Graham, Chairman of the Subcommittee, presiding.
    Present: Senators Graham and Sessions.

 OPENING STATEMENT OF HON. LINDSEY GRAHAM, A U.S. SENATOR FROM 
                  THE STATE OF SOUTH CAROLINA

    Chairman Graham. The hearing will finally come to order. I 
apologize for being late. It has been one of those crazy days.
    I appreciate your coming in and talking about a very 
important subject matter to me and, I think, the Senate and 
Congress as a whole. And without further ado, I look forward to 
hearing from both of you, Mr. Battle and Ms. Brooks, about what 
we need to be doing as a Senate and a Congress to make sure you 
have the tools necessary to perform very vital jobs. And 
without further ado, Mr. Battle?

STATEMENT OF MICHAEL A. BATTLE, DIRECTOR, EXECUTIVE OFFICE FOR 
    U.S. ATTORNEYS, DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Battle. Thank you. Good afternoon, Chairman Graham. It 
is indeed my honor to be here representing the outstanding men 
and women of the 94 United States Attorneys' Offices, and on 
their behalf I thank you for your continuing support of their 
efforts.
    My office provides oversight and coordination for the 94 
U.S. Attorneys' Offices, which collectively employ over 5,500 
Assistant U.S. Attorneys and over 5,000 support staff. We serve 
as liaison between the United States Attorneys and the Attorney 
General, the Deputy Attorney General, the Department's 
litigating divisions, and other components. Additionally, the 
office works with the United States Attorneys'' Offices to 
implement the President's and the Attorney General's priority 
initiatives, including efforts to combat terrorism, violent 
crime, the exploitation of children, cybercrime, drug 
trafficking, and other areas. Federal prosecutors play a vital 
role in these and other priority law enforcement programs, and 
the President's budget requests have sought the funding levels 
necessary to allow the U.S. Attorneys' Offices to meet 
important mission requirements.
    So we appreciate the opportunity to discuss the overall 
budget with you and to provide more details this afternoon. As 
you know, Mr. Chairman, the full House and Senate 
Appropriations Committee recently marked up the Department's 
appropriations bill. The House fully funded the President's 
request for the United States Attorneys at $1.664 billion and 
the Senate Appropriations Committee proposed just $18.2 million 
less than that amount.
    Over the past several years, the cumulative effect of 
permanent rescissions and rising costs, such as a cost-of-
living salary increase and rising rent, have contributed to the 
budget difficulties now faced by United States Attorneys' 
offices nationwide. Specifically from fiscal year 2003 through 
fiscal year 2006, United States Attorneys' appropriations have 
been reduced by rescissions of $67.2 million and absorption of 
another $52.8 million in cost-of-living salary increases. These 
two actions alone have effectively reduced the amount available 
to the United States Attorneys by $120 million over a 4-year 
period.
    Despite the fact that the amount provided by Congress has 
increased from year to year, those increases have not kept pace 
with rising costs. Once amounts for centrally managed mandatory 
costs such as rent, the telecommunications network, and 
personnel benefits are set aside, the amount remaining to 
allocate to the district offices has not been sufficient to 
meet the baseline district expenses for each of these past 
fiscal years, specifically the past 3 years. The declining 
district allocations have occurred and grown despite 
significant cost-saving measures because rising costs have 
outpaced the savings realized and the funding that has been 
provided.
    Because of these funding limitations, a majority of United 
States Attorneys' Offices nationwide have had to leave 
vacancies unfilled. The problem caused by fixed personnel and 
space costs rising at a faster rate than the g has particularly 
deep ramifications in an organization where 72 percent of the 
budget is attributed to personnel costs and another 15 percent 
addresses rent costs. This means that 87 percent of the annual 
budget needs to be devoted to people and space. When other 
essential costs are included, such as the nationwide 
telecommunications network and other necessary infrastructure 
and critical operational costs are considered, the 
discretionary budget segment is actually very small. That 
budget segment has been insufficient to offset the effects of 
the permanent rescissions and absorption of cost-of-living 
increases. As a result, over the past 3 years a need to 
generate cost savings that could not otherwise be attained has 
increased the number of vacant full-time equivalent work years 
from 198 in fiscal year 2004 and 465 in fiscal year 2005 to 775 
FTE projected for fiscal year 2006. Just to keep pace with 
rising costs during this same period, the United States 
Attorneys needed increases of at least 3 percent per year, in 
addition to enhancements. In the three most recent budget 
cycles, however, the average increase was 2 percent per year 
after rescissions, which included amounts intended for 
enhancements. The base budget for the United States Attorneys 
is eroding.
    The growing amount of unfilled FTE is affecting the number 
of cases filed and pending in the offices of the United States 
Attorneys. Between fiscal year 2004 and fiscal year 2006, the 
number of criminal cases filed is projected to decrease by 
almost 5 percent nationwide, going from 61,443 to 58,717. The 
number of pending or backlog of criminal cases increased by 
8,567, or 13 percent, between fiscal year 2003 and fiscal year 
2005. This upward trend is expected to continue in fiscal year 
2006, and also in the civil area, affirmative civil cases filed 
have decreased by 1,062 cases, or 12 percent, between 2003 and 
2005.
    These data demonstrate the effect of the base erosion of 
the United States Attorneys' workforce and mission.
    Full support of the President's fiscal year 2007 request 
will serve to reverse the trend of receiving less 
appropriations than needed to maintain current service levels 
and will put an end to the recent string of rescissions and 
absorptions that have caused the unfilled vacancies to continue 
to rise. The fiscal year 2007 budget request of $1.664 billion 
will support 10,262 positions. It will also provide $23.3 
million in enhancements, which will support 149 more positions. 
Now, while it will not totally offset the effect of permanent 
rescissions and absorptions, it will better position our 
organization to gain important momentum to address these gaps. 
It will also better position Federal prosecutors to keep pace 
with the substantial growth in resources that have been 
provided to Federal investigative agencies and the cases that 
they are bringing to us.
    We recognize that stewardship of appropriated funds is a 
serious responsibility. As the Nation's principal litigators, 
the United States Attorneys are on the front lines to keep 
Americans safe. The United States Attorneys have taken many new 
responsibilities over the past several years, and I thank you 
for the opportunity to discuss this budget with you today, sir.
    Thank you.
    [The prepared statement of Mr. Battle appears as a 
submission for the record.]
    Chairman Graham. Before Ms. Brooks speaks, we have Senator 
Sessions, who is my favorite U.S. Attorney, and who was really 
good at what he did. I am glad he is in the Senate.
    Senator Sessions?

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Senator Graham. It just turns 
out that I have a conflict and would not be able to be with 
you, because this is close to my heart, having served as 
Assistant United States Attorney, I guess, for 2\1/2\ years and 
U.S. Attorney for 12, and I care about it and was proud of the 
work that our office did.
    But I just want to make a couple of points because, Senator 
Graham, when I became a United States Attorney, my office had 
five AUSAs, and my secretary was the administrative officer in 
the office, and we just all tried cases. I tried as many as any 
assistant. By the time I left, we had 18 assistants, 
supervisors, and office managers, and debt collection units, 
and all of this. But I assure you the taxpayers got more 
productivity per assistant when we first started because we 
produced a lot with not a lot of help.
    So I guess I am just wanting to ask you to be thinking 
about what management decisions you can make to make sure that 
productivity is at its highest possible level, No. 1.
    Also, one thing that has happened is we got a lot of 
pushback saying you are bringing too many criminal cases in 
Federal court, these are smaller cases, they ought to be tried 
in State court. Two things have happened that I think make that 
maybe more viable today than 20 years ago, that is, State 
police are usually much better, and so are State prosecutors. 
And they are really more able sometimes to prosecute those.
    Finally, I would ask, you know, you have got--and I do not 
guess there is any way to really deal with this, but you have 
got probably an aging group there because they were hired about 
the time we ramped up when I was coming along in the 1980's, 
and we had a surging crime rate. And so a lot of people are 
supervisors now and things, and I am not sure they are in the 
courtroom. The only thing we pay them to do is put people in 
the slammer if they deserve it.
    And so I am very sympathetic and interested in trying to 
help, but I am not sure that we are aggressive enough at the 
Department of Justice level on down in trying to really 
challenge ourselves to find out how good we are doing and how 
we can enhance the prosecutions.
    I guess maybe since I have made those remarks I might let 
them have a quick response, Senator Graham. Mr. Battle is at 
EOUSA, and he is the one that everybody writes letters to 
asking for more assistance. I bet I wrote a bunch of letters to 
the EOUSA asking I had to have more of this and more of that, 
and we got some, I have to admit.
    Mr. Battle. Senator, that has not changed.
    [Laughter.]
    Senator Sessions. Would you comment on the thought that in 
a time of tight budgets, maybe there are some steps we could 
take. Maybe we do not have to take as many cases as we used to 
that States could handle. Maybe we could be more productive in 
handling the caseload we have.
    Mr. Battle. Thank you, Senator. It would seem, Senator--and 
I was an Assistant U.S. Attorney in the 1980's also, and I 
remember when fundamentally the types of cases that we did were 
more in the genre of white collar. And, of course, I left the 
Department in the early 1990's and came back a number of years 
later, and a lot of things had changed.
    And what I came to learn was that U.S. Attorneys' Offices 
were being to do a lot more than they did when I was an 
assistant, and they were partnering more with State and locals 
in areas of crime that we did not deal with in the mid- to late 
1980's and the early 1990's. There tended to be more of a focus 
on violent crime. The number of drug cases had been ramped up, 
and the OCDETF units had grown in size. And we have now 
formalized things like Project Safe Neighborhoods, Project Safe 
Childhoods, and it seems that Assistant U.S. Attorneys and U.S. 
Attorneys' Offices are actually being asked to do a lot more. 
And that is not because we are trying to replace the number of 
cases or what is being done by the State and local people. It 
is that the nature of the crime that is finding its way into 
our communities is straining the resources of our State and 
locals so they are asking us for help.
    There is more partnering of prosecuting cases across the 
board between State prosecutors and Federal prosecutors for the 
sole purpose of keeping people safe, and people in the 
community have become sophisticated in their knowledge that 
that partnership is, in fact, taking place.
    So it seems that I do not--I can get the actual number of 
what the average Assistant U.S. Attorney caseload is, but that 
would vary from community to community, with the number of 
cases, complexity of cases, and the types of crime that is 
going on in their communities. For example, the Attorney 
General announced his gang initiative about a year ago, and the 
level of gang activity in each community looks a little bit 
different. In some places, you have MI6, Bloods and Crips, in 
others you have smaller gangs, but they are all putting strain 
in a different way on their communities.
    So the answer to your question is AUSAs are actually being 
asked to do more. With the priorities that are being asked by 
the President and the Attorney General, our caseloads are going 
up. And, in addition, the complexity of cases is going up, and 
that is a little bit different than what maybe you or I 
experienced several years ago.
    Senator Sessions. And with very few exceptions, Mr. 
Chairman, that crime rate has gone down. Since 1980, I think 
the crime rate is about half what it was. And there are a lot 
of reasons for it. One of them, sadly, is that we have all the 
people in jail. It is not true that everybody commits crimes. 
Only a relatively small number do, and if you identify the 
repeat offenders, it does help bring down the crime rate.
    Well, I wish I could stay. I have an unavoidable conflict. 
Senator Graham, thank you for listening to these fine folks.
    Ms. Brooks, it is good to see you. There is a dispute over 
whether being an assistant is the best job in the world or U.S. 
Attorney. Which do you say?
    Ms. Brooks. I did not have the privilege of being an 
Assistant U.S. Attorney, so I came into the Department of 
Justice as a United States Attorney, and I think it is the best 
job in the world.
    Senator Sessions. I liked it. They paid you good money to 
play cops and robbers, and you always get to be the good guy.
    Ms. Brooks. It is great work, Senator.
    Senator Sessions. Great work.
    Chairman Graham. I feel like I am at a family reunion here. 
We will try to figure out what to do here. Anything else, 
Senator Session?
    Senator Sessions. No. Thank you. I have to run.
    Chairman Graham. All right. Ms. Brooks?

STATEMENT OF SUSAN W. BROOKS, U.S. ATTORNEY, SOUTHERN DISTRICT 
      OF INDIANA, DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Ms. Brooks. Chairman Graham, Senator Sessions, I am Susan 
Brooks, United States Attorney for the Southern District of 
Indiana. It is my honor to be here representing the United 
States Attorneys who are the Nation's principal litigators and 
who are at the forefront of our country's efforts to fight 
terrorism and to fight crime. I am also the Vice-Chair of what 
is called the Attorney General's Advisory Committee, or AGAC, 
and the Chair of its Office Management and Budget Subcommittee. 
The AGAC is a Committee of 16 United States Attorneys and one 
Assistant United States Attorney, representing various Federal 
judicial districts of varying sizes. We meet monthly to advise 
the Attorney General on policies affecting the United States 
Attorney community. The Office Management and Budget 
Subcommittee provides the full AGAC with recommendations on 
budget issues faced in our offices.
    As a representative of the United States Attorney 
community, I want to add my voice to the Department's 
leadership and strongly urge Congress to fully fund the United 
States Attorneys' Offices across the country at the level 
requested by the President. I appreciate the opportunity to 
discuss the impact on our individual offices from our budgets 
being funded below the President's recent requests. The 
cumulative effects of not receiving the President's budget 
requests, the consequences of past rescissions, and the 
underfunded cost-of-living adjustments and the rising costs are 
the underlying causes of our budget difficulties faced by 
United States Attorneys. As you have heard, between fiscal year 
2004 and fiscal year 2006, our offices' budgets have had to be 
reduced between 6 percent and 16 percent, depending on the size 
of our district, because of funding limitations.
    The largest districts--typically in our largest 
communities--have traditionally had higher turnover rates in 
those offices. They have borne the burden of larger cuts 
because the turnover in those offices would help to generate 
savings as positions have been left unfilled. In smaller 
offices, turnover rates are typically not sufficient to 
generate savings so readily. So to avoid furloughs or 
reductions in force at many levels, the budget strategy would 
help the United States Attorneys across the country to remain 
within funding availability without permanent personnel 
reductions. In other words, this approach has been buying us 
time to implement savings strategies so we could try to lower 
our operating costs and avoid continuing to burden the larger 
offices for the benefit of the smaller offices.
    Our budget challenges were especially significant at the 
beginning of fiscal year 2005 and 2006. The United States 
Attorneys collectively resolved to generate as much savings as 
possible, and we have generated some fairly significant cost-
saving measures, which have included: we have looked at all of 
our space, we have reduced the space that we have; we have 
reduced video and telecommunications lines; we now use far more 
online library services rather than hard copies; we have 
limited the ordering of real-time or hourly transcripts; we 
have limited travel; and we have limited the use of translation 
services.
    But even so, the savings that have been generated in these 
areas have not been sufficient to allow us to fill any 
meaningful amount of unfilled positions. More and more 
positions have been left vacant, just to make ends meet. As you 
have heard from Director Battle, the United States Attorneys' 
budget is personnel-intensive. Nearly 72 percent of our overall 
budget is devoted to salary and benefits of our people. 
District budgets are 98 percent payroll, mainly due to the fact 
that some areas in our budget, such as employee benefits, rent, 
and basic infrastructure, are centrally funded through EOUSA. 
But as you have heard, the number of vacant full-time 
equivalent work years, or FTE, has grown from 198 vacancies in 
2004 now to a projection of up to 775 vacancies in fiscal year 
2006.
    As of August 2006, our overall vacancy rate for the United 
States Attorney community as a whole is 10.3 percent, with 17 
extra-large districts experiencing an average vacancy rate of 
12.89 percent, which does include 12.08 percent for attorneys 
and 13.7 percent for support staff. As I noted earlier, these 
extra-large districts have taken larger reductions over the 
last several years solely because of their larger turnover 
rates. But it does come at the price of higher vacancy rates. 
There is no question that filling these vacancies would allow 
us to do more cases than we currently are able to do.
    As Chair of the Office Management and Budget Subcommittee 
of the AGAC, I have worked diligently with my colleagues so 
that we may jointly address our budget situation. Our task is 
straightforward yet complex. It is straightforward because we 
know that if additional funds are not forthcoming, we do need 
to continue to lower costs of doing business. It is complex 
because the truly discretionary part of our budget is quite 
small, so the focus on cost savings necessarily points then to 
our workforce. Working with the Executive Office for United 
States Attorneys over the last several years, we have used the 
tool of what is called Voluntary Early Retirement Authority or 
Voluntary Separation Incentive Payments, called VERA/VSIPs, to 
create opportunities to lower our average work-year costs so 
that we may start filling vacancies with the savings that that 
would generate. But transforming the average costs of a 
significant workforce is slow going. Most positions left by the 
vacancy of the VERA/VSIP tool have not been backfilled, as the 
savings were needed just to help to remain within our funded 
levels. But the incentive to generate savings and to fill as 
many vacancies as possible is strong. We will continue on this 
path and other sound business management paths, as Senator 
Sessions suggested, to address our budget issues responsibly.
    I very much appreciate the opportunity to appear before you 
today because I want to tell you that we are very committed as 
United States Attorneys. We do take our responsibility for our 
budgets to manage actively and responsibly while still meeting 
the demands of our mission. We appreciate the efforts that 
Congress has already made on our behalf in years past, but we 
need your continued support to meet our important mission of 
protecting this country. I am confident that by working 
together, we can quickly and effectively reverse the impact of 
these several years of rescissions and cost-of-living pay 
absorptions. But the first opportunity for us to jointly 
address this is now, as you consider these appropriations for 
fiscal year 2007.
    So on behalf of all the United States Attorneys on the 
front lines, I am asking the Senate to help us by providing the 
United States Attorneys with the President's full budget 
request of $1.664 billion in fiscal year 2007. We ask that you 
fund the United States Attorneys at the level requested by the 
President, consistent with the House of Representatives, and 
help us to avoid any rescissions that would take us below that 
level.
    Thank you for the opportunity, and I look forward to 
answering any questions you might have.
    [The prepared statement of Ms. Brooks appears as a 
submission for the record.]
    Chairman Graham. Well, thank you both. Well done. And I 
appreciate Senator Sessions' showing up.
    Ms. Brooks, how serious a problem is the pay cap which 
prohibits increasing the pay of first assistants, chiefs, and 
other senior AUSAs? If the President's full budget is approved 
for 2007, will most AUSAs not subject to the pay cap receive a 
cost-of-living increase?
    Ms. Brooks. The pay cap that you are referring to--I am not 
exactly certain which pay cap you are referring to, Senator.
    Chairman Graham. The one that prohibits--the pay cap which 
prohibits increasing the pay of first assistants, chiefs, and 
other senior AUSAs.
    Ms. Brooks. The pay cap issue is a very complex issue, and 
as we talked earlier, I really believe that it will be 
necessary for us to provide further information for the record 
at a later time on the pay cap issue.
    Chairman Graham. Fair enough. When it comes to securing 
U.S. Attorneys' Offices, Mr. Battle, do we have the money to do 
it where we are at with the review?
    Mr. Battle. If you would give me a second.
    Chairman Graham. Sure.
    [Pause.]
    Mr. Battle. Thank you, Mr. Chairman. At the Executive 
Office for United States Attorneys, we have been committed to 
providing this overtime, particularly when you go back to--
    Chairman Graham. Just very quickly, briefly if you could, 
is there enough money to implement the security measures that 
we believe are necessary?
    Ms. Brooks. Senator, I am aware that in the President's 
request for 2007, that is one of the enhancements. Physical 
security is an enhancement that was requested of $1.43 million. 
We do have ten districts that are in need of advanced 
electronic security systems, and we are required to improve our 
identification badging systems of 0.375. So that is an 
enhancement that we have requested in the President's request 
for physical security.
    Chairman Graham. Thank you. What programs do we have, Mr. 
Battle and Ms. Brooks, to retain Assistant U.S. Attorneys? Is 
there anything new and novel going on there? Because these are 
talented people, and you have got to do it more for the money 
because part of it is just patriotism, but the money does 
matter. Could you very briefly address that?
    Mr. Battle. Yes, Mr. Chairman. As you know, we have a 
world-class training facility in South Carolina, the National 
Advocacy Center.
    Chairman Graham. We do.
    Mr. Battle. There is no better place that I have ever 
experienced the level of training that goes on, and my office, 
of course, monitors that.
    Chairman Graham. Amen.
    Mr. Battle. And what I hear from Mr. Bailey, who runs it 
for us, is that he has to turn people away. People are breaking 
down the door to get in there, and I have attended a number of 
the trainings down there, and I can tell you, as you know, it 
is the finest in the country.
    In addition to that, we have a very aggressive mentoring 
program that was just started by the--
    Chairman Graham. I am sorry. I meant retaining, not 
training. Or does it all go together?
    Mr. Battle. We think that training goes toward retention, 
yes.
    Chairman Graham. Okay. Great.
    Mr. Battle. Because this is what the AUSA community is 
asking for in order to be better prepared.
    Chairman Graham. Okay.
    Mr. Battle. Because we hear from the judiciary about the 
kinds of things that they need.
    In addition to that, we provide opportunities for annual 
percentage raises, all sorts of opportunities to give awards 
and bonuses. We have a student repayment program and things of 
that nature that make life as an Assistant U.S. Attorney the 
place where people want to be.
    Chairman Graham. Ms. Brooks, have you found these things to 
be effective?
    Ms. Brooks. They have been efficiency, and we offer a 
couple of other things that other workplaces might not: in the 
appropriate cases, flexible work options; in the appropriate 
situations, we do have limited retention or relocation 
incentives that we can offer. We think it is very, very 
important for us to do what we can to retain the lawyers that 
we do spend a lot of time training, not just the lawyers but 
the other staff as well.
    Chairman Graham. Right. Thank you both. I have no further 
questions. I appreciate your testimony, and it has been--I know 
the challenges of the U.S. Attorneys' Offices post-9/11 are 
huge, and we need to make sure the budgets are there to meet 
those challenges. Thank you both for what you do. Please pass 
on from myself and the Committee the appreciation that we have 
for the assistants and all those administrative people who keep 
us safe. God bless.
    Mr. Battle. Thank you, Mr. Chairman.
    Ms. Brooks. Thank you for your support.
    Chairman Graham. Thank you very much.
    Mr. Shockley, I am going to have to leave in about 7 
minutes. I apologize. I have got something else to go to, but I 
do appreciate your being here. From your association's point of 
view, please tell us what we need to be doing.

 STATEMENT OF WILLIAM I. SHOCKLEY, FORMER PRESIDENT, NATIONAL 
 ASSOCIATION OF ASSISTANT U.S. ATTORNEYS, LAKE RIDGE, VIRGINIA

    Mr. Shockley. I am not going to say things that are a great 
deal different than you have already heard, Mr. Chairman. But I 
think that it will come from a slightly different perspective.
    I am honored to be here today, and on behalf of all 
Assistant United States Attorneys, we thank you for holding 
today's hearing and for your support for Federal prosecutors. 
We are especially appreciative, Mr. Chairman, of your 
leadership as Co-Chair of the Prosecutors Caucus.
    As previously discussed by Ms. Brooks and Mr. Battle, U.S. 
Attorneys' Offices, or USAOs, face significant financial and 
human resource challenges that diminish their ability to 
effectively carry out the mission of the Department of Justice. 
My 24 years as an AUSA ended earlier this year with my 
retirement after service in Connecticut, Florida, Washington, 
D.C., and California. I have come to believe that we may be 
approaching a time when Americans will be less safe and our 
system of justice less certain because of shortfalls in staff 
and financial resources at the district level.
    USAOs have responded to staffing constraints in part by 
raising local prosecution guidelines so that increases in 
criminal caseloads will not overwhelm the staff. Such adaptive 
measures are not available, however, on the civil side since, 
when the United States is sued, a civil AUSA must defend the 
lawsuit. When restitution or fines are imposed, collection must 
be sought. Since the civil attorneys in the USAOs in total 
collect more dollars than it takes to run all of the offices, 
it is difficult to understand, at least at the conceptual 
level, why funding should even be an issue.
    In addition to the areas previously mentioned, the 
budgetary restrictions have had damaging effects in other ways, 
for example, limiting the Government's ability to obtain and 
process voluminous financial records; limiting funds for 
routine training; and causing shortage of supplies. Legal 
secretaries are often assigned to as many as five attorneys, 
and attorneys must stay late into the night to perform their 
legal work since much of their workday is consumed with tasks 
routinely performed by legal secretaries or clerks in other law 
offices.
    For the attorneys and support staff alike, these conditions 
can be demoralizing. What may be acceptable over the short term 
becomes debilitating over the long haul. Additionally, we are 
risking losing the best of our highest-performing young 
attorneys because we are unable to provide them with pay 
increases, rewarding their outstanding performance.
    For these reasons, Mr. Chairman, we agree with the 
Department's witnesses that it is essential that the Senate 
approve the administration's fiscal year 2007 requested funding 
level for U.S. Attorneys' Offices and, additionally, that 
Congress adequately protect the offices' funding from budgetary 
rescissions.
    Very quickly, let me address a second important issue. 
There is a real need in U.S. Attorneys' Offices to achieve cost 
savings in personnel while improving the retention rate of 
younger but highly skilled AUSAs. The Department of Justice 
recognized this over 15 years ago when a high-level task force 
recommended the same approach that today is embodied in 
legislation pending before the Congress. It would provide AUSAs 
with the same retirement benefits as those received by Federal 
law enforcement officers. Numerous U.S. Attorneys have 
informally praised the legislation, which would accelerate the 
departure of retirement-eligible AUSAs while helping to stem 
the premature departure of skilled, experienced mid-level 
prosecutors. Since on average AUSAs remain with the Department 
for only 8 years, these early departures represent a critical 
loss of litigation skill and experience to the Government. 
Frankly, the larger United States Attorneys' Offices have, in 
effect, become a Government-financed training ground for the 
litigation divisions of large law firms.
    Equally important, the costs of the legislation proposed 
can be satisfied by the collections reform proposals that will 
improve DOJ's ability to collect restitution and judgments and 
increase Federal revenues.
    Mr. Chairman, in conclusion, the significant challenges 
facing Federal prosecutors are surmountable with appropriate 
funding at the district level. We believe that NAAUSA's 
legislative proposal can and ought to be a substantial part of 
the remedy.
    Thank you, Mr. Chairman, for your leadership and support on 
each of these fronts.
    Chairman Graham. Thank you for your association's support, 
and we will do everything within my power to try to get the 
money into the budget that will allow us to defend ourselves, 
and you, like other law enforcement agencies, the U.S. 
Attorney's Office is out there on the front lines in the war on 
terror. These Assistant U.S. Attorneys and U.S. Attorneys 
literally are under threat, and I just thank you for what you 
do. We will try our best to make sure the budget is robust.
    Thank you very much, and with that the hearing will be 
adjourned, and the record will remain open for 1 week, and I 
would like to thank Bruce Moyer and Denise Boyd for bringing 
this important issue to our attention and assisting in the 
hearings. God bless. Thank you for what you do.
    Mr. Shockley. Thank you, Senator Graham.
    [The prepared statement of Mr. Shockley appears as a 
submission for the record.]
    [Whereupon, at 3:22 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
    [Additional material is being retained in the Committee 
files.] 

[GRAPHIC] [TIFF OMITTED] T2149.001

[GRAPHIC] [TIFF OMITTED] T2149.002

[GRAPHIC] [TIFF OMITTED] T2149.003

[GRAPHIC] [TIFF OMITTED] T2149.004

[GRAPHIC] [TIFF OMITTED] T2149.005

[GRAPHIC] [TIFF OMITTED] T2149.006

[GRAPHIC] [TIFF OMITTED] T2149.007

[GRAPHIC] [TIFF OMITTED] T2149.008

[GRAPHIC] [TIFF OMITTED] T2149.009

[GRAPHIC] [TIFF OMITTED] T2149.010

[GRAPHIC] [TIFF OMITTED] T2149.011

[GRAPHIC] [TIFF OMITTED] T2149.012

[GRAPHIC] [TIFF OMITTED] T2149.013

[GRAPHIC] [TIFF OMITTED] T2149.014

[GRAPHIC] [TIFF OMITTED] T2149.015

[GRAPHIC] [TIFF OMITTED] T2149.016

[GRAPHIC] [TIFF OMITTED] T2149.017

[GRAPHIC] [TIFF OMITTED] T2149.018

[GRAPHIC] [TIFF OMITTED] T2149.019

[GRAPHIC] [TIFF OMITTED] T2149.020

[GRAPHIC] [TIFF OMITTED] T2149.021

[GRAPHIC] [TIFF OMITTED] T2149.022

[GRAPHIC] [TIFF OMITTED] T2149.023

[GRAPHIC] [TIFF OMITTED] T2149.024

[GRAPHIC] [TIFF OMITTED] T2149.025

[GRAPHIC] [TIFF OMITTED] T2149.026

[GRAPHIC] [TIFF OMITTED] T2149.027

[GRAPHIC] [TIFF OMITTED] T2149.028

[GRAPHIC] [TIFF OMITTED] T2149.029

[GRAPHIC] [TIFF OMITTED] T2149.030

[GRAPHIC] [TIFF OMITTED] T2149.031

[GRAPHIC] [TIFF OMITTED] T2149.032

[GRAPHIC] [TIFF OMITTED] T2149.033

[GRAPHIC] [TIFF OMITTED] T2149.034

[GRAPHIC] [TIFF OMITTED] T2149.035

                                 <all>

</pre></body></html>
